U.S. Department of Justice
Office of the Inspector General




Report to Congress on Implementation
of Section 1001 of the USA PATRIOT Act
    (as required by Section 1001(3) of Public Law 107-56)




                                         September 2012
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the 21st since enactment of the legislation in October 2001, summarizes the
OIG’s Section 1001-related activities from January 1, 2012, through June 30,
2012.


I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals
Service (USMS), and the U.S. Attorneys’ Offices. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division conducts independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division investigates allegations of bribery, fraud,
           abuse, civil rights violations, and violations of other criminal laws and
           administrative procedures that govern Department employees,
           contractors, and grantees.

       1  The OIG has authority to investigate allegations of criminal wrongdoing or
administrative misconduct by any Department employee, except for “allegations of misconduct
involving Department attorneys, investigators, or law enforcement personnel, where the
allegations relate to the exercise of the authority of an attorney to investigate, litigate, or
provide legal advice." 5 U.S.C. App. 3 § 8E(b)(2)-(3).



Office of the Inspector General, U.S. Department of Justice                         Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 445 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.


II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.



Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Section 1001 requires the OIG to “review information and receive
complaints alleging abuses of civil rights and civil liberties by employees and
officials of the Department of Justice.”

      The OIG’s Investigations Division manages the OIG’s Section 1001
investigative responsibilities. The two units with primary responsibility for
coordinating these activities are Operations Branch I and Operations Branch II,
each of which is directed by a Special Agent in Charge and two Assistant
Special Agents in Charge (ASAC). 2 In addition, these units are supported by
Investigative Specialists and other staff assigned to the Investigative Support
Branch, who divide their time between Section 1001 and other responsibilities.

       The Investigations Division receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. Upon receipt, Division
ASACs review the complaints and assign an initial disposition to each matter,
and Investigative Specialists enter the complaints alleging a violation within the
investigative jurisdiction of the OIG or another federal agency into an OIG
database. Serious civil rights and civil liberties allegations relating to actions
of DOJ employees or contractors are typically assigned to an OIG Investigations
Division field office, where special agents conduct investigations of criminal
violations and administrative misconduct. 3 Occasionally, complaints are
assigned to the OIG’s Oversight and Review Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction, and when those matters identify a specific issue for investigation,
the OIG forwards them to the appropriate investigative entity. For example,

        2 These units also coordinate the OIG’s review of allegations of misconduct by

Department employees: the Operations Branch I has primary responsibility for matters
involving the BOP, USMS, and the U.S. Attorney’s Offices; the Operations Branch II has
primary responsibility for matters involving the FBI, DEA, and ATF.
       3   The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not result in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter.



Office of the Inspector General, U.S. Department of Justice                        Page 3
complaints of mistreatment by airport security staff or by the Border Patrol are
sent to the Department of Homeland Security OIG. The DOJ OIG has also
forwarded complaints to the Offices of Inspectors General at the Department of
State, the Department of Veterans Affairs, and the Social Security
Administration. Allegations related to the authority of a DOJ attorney to
litigate, investigate, or provide legal advice are referred to the DOJ Office of
Professional Responsibility. Allegations related solely to state and local law
enforcement or government officials that raise a federal civil rights concern are
forwarded to the DOJ Civil Rights Division.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

   A. Complaints Processed During This Reporting Period

      Between January 1, 2012 and June 30, 2012, the period covered by this
report, the OIG processed 670 new civil rights or civil liberties complaints. 4

      Of these complaints, 557 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (508) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (49) raised allegations that were not suitable for investigation by the
OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

      The OIG found that the remaining 113 of the 670 complaints it received
involved DOJ employees or DOJ components and included allegations that
required further review. The OIG determined that 101 of these complaints
raised management issues generally unrelated to the OIG’s Section 1001 duties
and, consequently, referred these complaints to DOJ components for
appropriate handling. Examples of complaints in this category included
allegations by federal prisoners about the general prison conditions and by
others that the FBI did not initiate an investigation into particular allegations.
Additionally, the OIG referred one complaint to the BOP for investigation that,


         4 These complaints include all matters in which the complainant made any mention of

a civil rights or civil liberties violation, even if the allegation was not within the OIG’s
jurisdiction.



Office of the Inspector General, U.S. Department of Justice                       Page 4
based on a preliminary review, was deemed not to raise allegations of civil
rights or civil liberties violations motivated by religious discrimination.

       The OIG identified a total of 11 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred, and
the OIG referred these 11 complaints to the BOP for further investigation. The
next section of this report describes the substance of these 11 complaints.
Notably, none of the complaints processed during this reporting period
specifically alleged misconduct by DOJ employees relating to the use of
authorities contained in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:


      Complaints processed                               670

      Complaints not within OIG’s
      jurisdiction or warranting further review          557

      Total complaints within OIG’s
      jurisdiction warranting review                     113

      Management issues referred to
      DOJ components for handling                        101

      Non-Section 1001 complaints warranting
      investigation by DOJ components                         1

      Possible Section 1001 complaints
      warranting investigation by OIG                         0

      Possible Section 1001 complaints
      warranting investigation by DOJ components          11


   B. Section 1001 Complaints

      1. Investigations Opened During This Reporting Period

      During this reporting period, the OIG referred 11 Section 1001-related
complaints to the BOP for investigation. BOP completed investigations of 6 of
the complaints opened during this period; investigations of the remaining 5
complaints remain pending. The OIG has requested that, upon completion of
the investigation of each referred complaint, BOP provide the OIG a copy of its
investigative report.


Office of the Inspector General, U.S. Department of Justice            Page 5
         a. Completed BOP Investigations

            •   A BOP inmate alleged that a BOP cook supervisor refused to
                hire the inmate because of the inmate’s affiliation with Muslims
                and the BOP supervisor asserted that such affiliation was
                related to gang membership. The BOP cook supervisor stated
                that he did not recall the inmate asking for a job and denied
                making the alleged discriminatory statement. The complainant
                did not mention any other witnesses to the alleged statement.
                The BOP concluded that there was insufficient evidence to
                substantiate the allegation and closed its investigation.

            •   A BOP inmate alleged that a correctional officer harassed and
                discriminated against him for being Muslim by telling the
                inmate that Islam was a “rag-head religion” and upon hearing
                the inmate’s prayers, telling the inmate that he did not want to
                hear “that garbage” and ordering him to be quiet. The inmate
                also alleged that the officer falsely accused him of refusing to
                submit to a pat search and ordered him to the lieutenant’s
                office, where he received a strip and body cavity search in the
                presence of two other correctional officers and a lieutenant. The
                inmate alleged that he never received an explanation for the
                search. The inmate further alleged that two weeks after he
                threatened to report the lieutenant and correctional officers who
                searched him, the lieutenant retaliated by confiscating items of
                the inmate’s personal property and ordering correctional officers
                to search his cell. The BOP officer denied referring to Islam as a
                “rag-head religion.” He further denied referring to the inmate’s
                prayers as “that garbage” and ordering the inmate to be quiet
                while praying. He stated that he sent the inmate to the
                lieutenant’s office when the inmate refused to submit to a
                legitimate pat search. Two correctional officers and the
                lieutenant who were on duty stated that the inmate had been
                visually searched in the lieutenant’s office after refusing to
                comply with a pat search, but they denied that a cavity search
                had been conducted. The lieutenant stated that two weeks
                later, he took possession of a lanyard and scarf belonging to the
                inmate, but he denied doing so in retaliation and denied
                ordering a search of the inmate’s cell. The BOP concluded that
                there was insufficient evidence to substantiate the allegations
                and closed its investigation.

            •   A BOP inmate alleged that a correctional officer threatened him
                with sanctions if he filed a complaint after the correctional
                officer refused to allow the inmate’s wife into the visitor’s room
                because of her inappropriate attire, denied the inmate’s children


Office of the Inspector General, U.S. Department of Justice             Page 6
                the use of the bathroom, and terminated the visit when the
                inmate’s father returned to the car to take a nap. The inmate
                also alleged that the correctional officer asked him where he
                and his family were from and when the inmate replied that he
                was Muslim and from Lebanon, the correctional officer replied,
                “That’s your problem.” The BOP correctional officer admitted
                that he asked the inmate about his nationality, but claimed he
                did so because the inmate was speaking loudly and engaging in
                conduct similar to a member of his own family who was of
                Middle Eastern origin. He denied the other allegations. The
                BOP determined that the correctional officer enforced
                institution rules and regulations during the visit, and that there
                was not sufficient evidence to show that he acted
                unprofessionally while dealing with the inmate and his family.
                The BOP concluded that the allegations were not substantiated
                and closed its investigation.

            •   A BOP inmate filed a tort claim alleging that a correctional
                officer sexually assaulted him during a visual strip search in a
                holding area by inappropriately touching him, including forceful
                touching of the inmate’s genitals. When the inmate asked the
                reason for the search, the correctional officer allegedly
                responded, “All you Muslim guys be having stuff on y’all.” The
                inmate refused to provide a sworn affidavit to the BOP
                investigators and had not disclosed information about the
                alleged assault when BOP staff previously conducted a “sexual
                abuse intervention” about the incident. The correctional officer
                did not recall conducting a visual strip search of the inmate and
                stated that he did not touch the inmate inappropriately and did
                not touch the inmate’s genitals; the officer also denied making
                the alleged statement. The visual search log did not show that
                a visual search had been conducted on this inmate on the date
                in question, and there were no video cameras in the area where
                the alleged search occurred. The BOP determined there was not
                sufficient evidence to substantiate the allegations and closed its
                investigation.

            •   A Muslim BOP inmate on a pork-free religious diet alleged that
                correctional officers served him a day-old food tray with a pork
                patty. The inmate alleged that the correctional officers
                intentionally tampered with his food tray. The correctional
                officers denied the allegations, and the BOP determined there
                was not sufficient evidence to substantiate the allegations and
                closed its investigation.




Office of the Inspector General, U.S. Department of Justice             Page 7
            •   A BOP inmate alleged that a correctional officer did not allow
                him to wear his kufi (a cap traditionally worn by Muslims) and
                threatened to dispose of it or send it to the inmate’s home. The
                BOP correctional officer stated that he confiscated the inmate’s
                kufi because it was purple rather than the approved black or
                white. The BOP investigation determined that the correctional
                officer followed BOP rules by not allowing the inmate to wear
                the purple kufi on the compound. The BOP concluded that the
                allegations were unsubstantiated and closed its investigation.

         b. Continuing BOP Investigations

            •   A BOP inmate alleged that after he filed a grievance against a
                BOP chaplain for allegedly interfering with his right to practice
                the Islamic faith, the chaplain then accused the inmate of
                “starting a terrorist cell,” resulting in the inmate being placed in
                segregated housing. The inmate also alleged that after filing
                another grievance alleging retaliation, he was again sent to
                segregated housing. Additionally, the inmate alleged that after
                an internal investigation at the prison determined that the
                allegations against him were false, the BOP took no action
                against the staff and instead transferred the inmate twice,
                leaving him thousands of miles from his family.

            •   A BOP inmate alleged that a recreation specialist threatened
                and harassed Muslim inmates by threatening to write incident
                reports on any inmate found praying in the recreation area of
                the prison. The inmate also alleged that the specialist made
                comments such as “I don’t like Muslims” in the presence of
                other inmates.

            •   A BOP inmate alleged that a correctional officer used a racial
                slur, confiscated his kufi for no reason, and referred to the kufi
                as a “terrorist cap.” The inmate further alleged that two other
                correctional officers witnessed the correctional officer threaten
                and approach the inmate in an aggressive manner.

            •   A BOP inmate alleged that a correctional officer used profanity
                towards inmates and treated black Muslim inmates harshly
                because of their religious beliefs. The inmate also alleged that
                BOP staff intentionally destroyed his written correspondence.

            •   A BOP inmate alleged that he was placed in solitary
                confinement in a special housing unit (SHU) during the
                investigation of an unspecified incident between another
                Muslim inmate and a correctional officer. According to the
                inmate, he was placed in the SHU because he was a Muslim,


Office of the Inspector General, U.S. Department of Justice               Page 8
                and he has been held there for additional time as retaliation for
                filing a lawsuit. He also alleged that while in segregation, he
                was denied access to his family, was told by a case manager
                that his name did not appear on a roster of inmates at the
                institution, and was not informed of the status of the
                underlying investigation. He further alleged that prison staff
                destroyed his legal materials.

      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. Ongoing OIG Investigation

            The OIG opened the following ongoing investigation during a prior
            reporting period.

            •   The OIG is investigating allegations by several BOP inmates that
                Muslim inmates housed in a BOP Communications
                Management Unit (CMU) were subjected to discriminatory and
                retaliatory measures by BOP staff because of their faith and
                “ethnic identity.”

          b. Complaints Referred to BOP

             The OIG referred the following three complaints to the BOP for
             investigation during a prior reporting period; the investigations
             remain open. The OIG has requested that BOP provide a copy of
             its investigative report upon completion of the investigation of
             each referred complaint.

            •   A Muslim inmate alleged that he feared that BOP correctional
                officers would pay someone to kill or assault him or that his
                cellmate would assault him because staff told the cellmate he
                was not being moved because of the complainant. The inmate
                further alleged that several complaints related to his torture
                have been ignored; that a correctional officer deliberately served
                him pork; and that he was denied medical treatment for nerve
                damage to his hand as a result of misapplication of restraints.
            •   An inmate alleged that a BOP correctional officer harassed
                Muslim inmates and interfered with their attendance at
                religious services. The inmate further alleged that the
                correctional officer made hostile and harassing sexual
                comments to the inmates and touched them in an inappropriate
                manner.




Office of the Inspector General, U.S. Department of Justice             Page 9
            •   A Muslim inmate alleged that: his religious diet was suspended;
                he was placed in “racial segregation” because of lies fabricated
                by the BOP chaplain and his assistant; BOP staff tampered with
                his legal mail and obstructed calls to his attorneys; BOP staff
                censured his participation during Islamic services and studies;
                the BOP inappropriately classified him as an international
                terrorist; and a BOP lieutenant told him that the prison staff
                hated him.

      3. Previously Opened Investigations that were Closed During This
         Reporting Period

      The OIG completed its investigations of two Section 1001-related matters
opened in a prior period. Additionally, the BOP completed investigations of 13
Section 1001-related complaints previously referred by the OIG in prior
periods. Upon completion of the investigation of each referred complaint, the
BOP provided the OIG a copy of its investigative report.

         a. Closed OIG Investigations

            •   The OIG investigated allegations by a BOP inmate that BOP
                correctional officers in a CMU, motivated by “anti-Muslim
                hostility and hatred,” attempted to instigate riots, stabbings,
                and killings among Muslim inmates by allowing some inmates
                access to other inmates’ files on the officers’ computer. The
                inmate was not able to provide specific details regarding his
                allegations, but provided the names of several inmates who
                allegedly could corroborate the allegations. However, the other
                inmates interviewed did not corroborate such allegations. All
                three employees against whom the allegations were made
                denied the allegations. In addition, during an interview with
                BOP, the inmate stated he was going to file as much paperwork
                as possible on “everything he could” in an effort to occupy
                prison staff and impede them from doing their jobs. The OIG
                determined that the evidence did not substantiate the inmate’s
                allegations, and provided its findings to BOP.

            •   The OIG investigated allegations by a BOP inmate that a
                correctional officer uttered racial and religious slurs and
                physically assaulted him while escorting him to recreation,
                resulting in a gash over the inmate’s eye that required stitches.
                The inmate also alleged that two other correctional officers
                spread rumors in the prison and when the inmate complained,
                unidentified correctional officers entered his cell, confiscated his
                “Ramadan food,” and damaged his Koran. Records indicate
                that BOP medical staff treated the inmate immediately after an



Office of the Inspector General, U.S. Department of Justice               Page 10
                incident, provided him with pain medication, and conducted at
                least one follow up examination and treatment. BOP
                memoranda about the incident and video recordings of the
                incident supported the use of force by the correctional officer.
                The OIG interviewed the correctional officer who the inmate
                accused of physical abuse; he denied the allegations. In
                addition, the OIG investigation determined that the inmate
                made no mention of physical abuse, desecration of his Koran,
                or other religious or racial defamation by staff when he was
                interviewed by a BOP staff psychologist shortly after the
                incident. Moreover, the psychologist stated that the inmate
                attributed the incident to his own misbehavior. In his
                statement to the OIG, the inmate admitted that he had “no
                direct knowledge” that two correctional officers spread rumors
                about him, and he rescinded the administrative complaint he
                filed against them. The inmate was unable to identify the
                correctional officers who he alleged damaged his Koran, and
                stated that he did not know whether the damage was done
                deliberately or not. The OIG examined the inmate’s Koran,
                which did not appear to have been intentionally torn or
                damaged. The OIG determined that the evidence did not
                substantiate the inmate’s allegations and reported the findings
                to the BOP.

         b. Closed BOP Investigations

            •   A BOP inmate alleged that a correctional officer hindered his
                ability to use the BOP administrative process by delaying his
                access to complaint forms; denied him an Islamic Halal diet;
                denied him the opportunity for group worship five times a day;
                restricted him to only five personally owned Islamic books;
                denied him access to a full-time Sunni Muslim chaplain; and
                denied him access to undiluted prayer oil. BOP determined
                that the inmate’s ability to use the administrative process had
                not been impeded because his complaints about facility policies
                were not governed by the deadlines applicable to allegations
                regarding specific incidents. In addition, BOP determined that
                the inmate’s diet, access to a chaplain, access to group prayer
                sessions, and property allowances for religious items were all
                consistent with applicable policies. BOP concluded that the
                allegations were unsubstantiated and closed its investigation.

            •   Two BOP inmates alleged that Muslim inmates, unlike non-
                Muslim inmates, were not allowed to invite guests to their
                religious services and were not permitted additional time in the
                chapel to study. The inmates also alleged that correctional


Office of the Inspector General, U.S. Department of Justice            Page 11
                officers placed contraband in the cells of Muslim inmates and
                removed legal documents from a Muslim inmate’s cell. One
                inmate subsequently refused to provide additional details or an
                affidavit to the BOP; the other inmate stated that he suspected
                an officer of removing an administrative remedy form from his
                cell and placing a contraband radio in his cell, but had not
                personally witnessed either event. The chaplain, who stated
                that all faith groups receive an equal amount of time in the
                chapel and that no study groups were conducted in the chapel.
                The BOP Chapel Program Schedule corroborated the chaplain’s
                statements. Inmates of any faith may request approval in
                advance to attend religious services as guests. The BOP
                correctional officer on duty when the legal documents were
                allegedly removed from the complainant’s cell denied taking any
                documents from the inmate’s cell. BOP concluded that the
                allegations were not substantiated and closed its investigation.

            •   An inmate alleged that unknown BOP staff members
                discriminated against him because of his Muslim faith by using
                a prior investigation of an assault on staff as a pretext to house
                him in the SHU. BOP’s investigation found that a threat
                assessment had been conducted that determined a group of
                Muslim inmates were preparing for a physical altercation with
                other Muslim inmates, and that approximately 20 inmates
                suspected of being involved, including the complainant, were
                placed in the SHU pending the completion of the investigation.
                Ten inmates were ultimately recommended for transfer based
                on their involvement in the preparations for the altercation.
                BOP concluded there was insufficient evidence to substantiate
                the allegations and closed its investigation.

            •   A Muslim inmate alleged that the BOP’s CMUs within certain
                facilities are “secret prisons” where inmates are subjected to
                psychological torture, humiliation, and intimidation. The
                inmate alleged that inmates are sent to the CMU without due
                process and that a high percentage of the CMU inmates are
                Muslim men who have been classified as terrorists without
                legitimate cause. BOP interviewed the inmate and BOP officials
                responsible for the administration, safety, medical services, and
                daily operations of CMUs. The inmate did not describe
                conditions or practices consistent with psychological torture,
                humiliation and intimidation. Instead, he complained about
                inadequate visitation and telephone privileges; delayed mail
                service due to enhanced security screenings; “lock down”
                periods that occur at the same time and rate as the General
                Population section; a requirement that inmates wear khaki


Office of the Inspector General, U.S. Department of Justice              Page 12
                pants and collared shirts to team meetings; indoor-only
                recreation; pest control procedures that he alleged were
                inadequate; and several issues that did not indicate willful
                mistreatment of the inmates. BOP reported that the CMU was
                “established to house inmates who, due to their current offense
                of conviction, offense conduct, or other verified information,
                require increased monitoring of communications between
                inmates and persons in the community in order to protect the
                safety, security and orderly operation of Bureau facilities, and
                to protect the public.” BOP determined that there was no
                national policy governing the CMUs; each BOP institution
                housing a CMU was guided by Institution Supplements that
                establish procedures for the operation and security of the Unit.
                BOP determined that the CMU where the inmate was housed
                was placed in “lock down” status at the same rate as General
                Population section, and normally was released from “lock down”
                status sooner. All restrictions concerning visitation, mail and
                telephone use were consistent with the purpose of the CMUs.
                BOP further determined that recreational opportunities for CMU
                inmates were “essentially the same” as those for General
                Population inmates, with the exception of access to a large track
                and field area; CMU inmates have access to some outdoor
                recreation and full access to cardiovascular equipment and
                hobby craft areas. Regarding the allegation of inadequate pest
                control, BOP determined that the CMU in question is sprayed
                for pests every other week; a temporary problem with gnats was
                resolved when a plumbing problem was corrected; and inmates
                are given “sticky strips” to control the occasional presence of
                mice during the onset of colder weather in the fall. BOP
                concluded there was not sufficient evidence to support the
                allegations and closed its investigation.

            •   A BOP inmate alleged that BOP employees did not allow him to
                maintain the proper religious diet in accordance with his
                Muslim faith, causing him to violate his religious guidelines.
                The inmate also alleged that the BOP chaplain and other
                employees threatened him with placement in the SHU for
                observing his religion. The BOP chaplain indicated that the
                inmate did not request to discuss his concerns about his
                maintaining his religious diet and therefore, the inmate was not
                issued an alternative meal card. The chaplain also denied
                threatening to place the inmate in the SHU for observing his
                religion. BOP records indicated that the inmate was only placed
                in the SHU once, which occurred at the time of his arrival at the
                facility in accordance with established procedures for Admission
                and Orientation processing. BOP concluded there was


Office of the Inspector General, U.S. Department of Justice            Page 13
                insufficient evidence to support the allegations and closed its
                investigation.

            •   A Muslim inmate alleged that he was assaulted by a
                correctional officer while being escorted to the recreation yard
                because he was an Arab Muslim. The BOP correctional officer
                denied the allegations, and video surveillance confirmed that
                the correctional officer did not assault the inmate. BOP
                concluded that the allegations were unsubstantiated and closed
                its investigation.

                A BOP inmate alleged that a BOP chaplain discriminated
                against members of the Nation of Islam by refusing to allow
                members to conduct prayer with the rest of the Muslim
                community at the breaking of the fast during the month of
                Ramadan; denying members access to the chapel; denying
                members a fair share of religious resources; denying members
                access to a BOP-approved Nation of Islam volunteer, and
                instructing “his subordinate and secretary” that they did “not
                have to perform their job descriptions” in the interest of the
                Nation of Islam inmates. BOP determined that: (1) Nation of
                Islam inmates participated in the Ramadan Observance with
                Orthodox Muslims, including the Koranic reading and Daily
                Salat (prayer), but BOP policy mandated that the ceremony be
                led by Orthodox Muslims; (2) the amount of chapel time allotted
                to each inmate religious group (including Muslims) was within
                policy; (3) the religious budget was divided among the inmate
                religious groups (including Muslims) in a fair and equitable
                manner; and (4) the chaplain attempted to maintain a volunteer
                for the Nation of Islam. In sworn affidavits, the chaplain and
                other members of his staff also denied that the chaplain had
                instructed them to treat members of different religious groups
                differently. BOP concluded that the allegations were not
                substantiated and closed its case.

            •   A BOP inmate’s mother alleged that BOP employees were
                discriminating against Muslim inmates and housing them in
                the SHU with no explanation. The inmate’s mother also alleged
                that the inmate was improperly placed in the SHU after another
                Muslim inmate assaulted a staff member; she claimed that the
                inmate was not involved in the assault. The inmate refused to
                provide a statement or an affidavit. BOP concluded there was
                insufficient evidence to substantiate the allegations and closed
                its investigation.
            •



Office of the Inspector General, U.S. Department of Justice             Page 14
            •   A BOP employee alleged that an inmate told him that BOP staff
                directed him to stop helping Islamic inmates “because we don’t
                help terrorists,” and told him that he was placed in the SHU in
                retaliation for filing a complaint regarding his e-mail privileges.
                The inmate subsequently denied making the allegations and
                provided an alternate explanation for why he was placed in the
                SHU. The BOP employee initially refused to make any
                statements directly relating to the allegations, but subsequently
                stated that he did not remember if the inmate had alleged
                retaliation. BOP concluded that the allegations were not
                substantiated and closed its investigation.

            •   A Muslim inmate alleged that a BOP lieutenant sprayed him
                with chemical agents even though he knew the inmate suffered
                from chronic asthma. The inmate also alleged that the
                lieutenant restrained him by his ankles and hands and left him
                in an empty room without a toilet, sink, shower, bed, food, or
                water for two days. Further, the inmate alleged that the
                lieutenant told him he hated Muslims, forbade him from
                practicing his religion, and taunted him about having “a pork
                chop sandwich” if he was hungry. Based on witness accounts
                and BOP documentation, BOP’s investigation determined that
                circumstances warranted BOP staff taking steps to forcibly
                remove the inmate from his cell. The use of chemical agents
                during the cell extraction was authorized by the warden and
                cleared by a physician’s assistant. Following the extraction, the
                inmate was medically assessed and provided new clothing. The
                BOP lieutenant denied leaving the inmate in an empty room
                without a toilet, sink, shower, or bed for two days, and this
                denial was supported by BOP records indicating that the cell
                had the proper facilities. The lieutenant denied leaving the
                inmate without food or water for two days, and the BOP
                paperwork indicated that the officers provided meals to the
                inmate. The lieutenant also denied making the alleged
                discriminatory statement, and three correctional officer
                witnesses denied hearing the lieutenant make such a
                statement. BOP concluded that there was not sufficient
                evidence to support the allegations and closed its investigation.

            •   A Muslim inmate alleged that a BOP lieutenant harassed Arab
                Muslim inmates; made false allegations against an Arab Muslim
                inmate and placed him in the SHU; and gave Muslim inmates
                “evil, hateful looks” for no reason other than their religion and
                ethnicity. The BOP lieutenant denied the allegations, and there
                was no corroborating information to support the allegations of
                harassment and discrimination; BOP closed its investigation


Office of the Inspector General, U.S. Department of Justice              Page 15
                   into those allegations. After a separate investigation, BOP
                   concluded that there was not sufficient evidence to support the
                   allegation of a fabricated incident report. 5

               •   A Muslim inmate alleged that: (1) a BOP correctional officer
                   suggested that all Taliban and Al-Qaida members should be
                   killed; (2) BOP employees did not permit Muslim inmates to
                   pray individually at the workplace or to return to their cells for
                   prayers during their work assignments; (3) BOP employees
                   placed Muslim inmates in the SHU more frequently than non-
                   Muslim inmates; (4) BOP employees ignored Muslim inmates’
                   administrative remedy requests; (5) BOP staff threatened
                   Muslim inmates to discourage them from filing administrative
                   remedy requests; (6) an aggressive and threatening recreation
                   supervisor ordered him to leave the dining hall before he
                   finished his meal; and (7) a BOP Chaplain referred to an inmate
                   as a “snitch” in the presence of other inmates. The inmate’s
                   first allegation had already been investigated by BOP, and was
                   found to be unsubstantiated when the officer denied making the
                   statement, and no other witnesses were present. Concerning
                   the second allegation, a BOP institution policy supplement
                   prohibited religious prayer outside of the religious service area
                   without the approval of the associate warden of programs, and
                   such approval had not been granted to this inmate. As for the
                   third allegation, BOP found that there was insufficient evidence
                   to support the claim of perceived disparity in SHU placements
                   and, as to the fourth and fifth allegations, that the inmates’ two
                   administrative remedy requests had been properly denied.
                   Regarding the sixth allegation, the BOP interviewed the
                   recreation supervisor, who stated that the inmate was “standing
                   around” in the dining hall, prompting the supervisor to order
                   him twice to leave the area; BOP found that the allegation was
                   unsubstantiated. BOP investigated the final allegation under a
                   separate case number; the allegation was sustained and
                   resulted in a finding of unprofessional conduct by a chaplain,
                   who received a letter of reprimand. BOP closed its
                   investigation.

               •   A Muslim inmate alleged that a BOP physician unnecessarily
                   touched the side of her breast and gave her a possibly
                   unnecessary injection in her buttock when she sought
                   treatment for insomnia. The inmate further alleged that she
                   had been racially profiled since September 11, 2001, that a BOP

       5 The OIG reported the details of the BOP’s investigation into the false incident report in

its January 2011 Report to Congress on Implementation of Section 1001 of the Patriot Act.



Office of the Inspector General, U.S. Department of Justice                           Page 16
                  captain would not permit her to wear loose-fitting clothing and
                  long-sleeved shirts as required by her religion, and that she was
                  placed in the SHU for having worn a loose-fitting shirt. The
                  BOP physician, denied the allegations, and the BOP medical
                  records determined that the physician acted within BOP policy
                  during his examination and treatment of the inmate, including
                  the means of administering the prescribed injection. The BOP
                  captain stated that when he told the inmate she was not
                  permitted to wear the sweatshirt, she began yelling and accused
                  the captain of making her remove her sweatshirt because she is
                  Muslim, prompting the captain to remove the inmate from the
                  dining hall and place her in the SHU. The inmate subsequently
                  corroborated the captain’s account of the incident and admitted
                  to wearing unauthorized clothing. BOP concluded that the
                  allegations were unsubstantiated and closed its investigation.


IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report. 6

   A. Review of the FBI’s Activities Under Section 702 of the Foreign
      Intelligence Surveillance Act Amendments Act of 2008

        Section 702 of the Foreign Intelligence Surveillance Act (FISA)
Amendments Act of 2008 (Act) authorizes the targeting of non-U.S. persons
reasonably believed to be outside the United States for the purpose of acquiring
foreign intelligence information. As required by the Act, the OIG is reviewing
the number of disseminated FBI intelligence reports containing a reference to a
U.S. person identity, the number of U.S. person identities subsequently
disseminated in response to requests for identities not referred to by name or
title in the original reporting, the number of targets later determined to be
located in the United States, and whether communications of such targets were
reviewed. In addition, the OIG is reviewing the FBI’s compliance with the
targeting and minimization procedures required under the Act.



       6 An audit being conducted by the OIG of the Department’s efforts to ensure safe and
secure non-federal detention facilities was included in our February 2012 Report to Congress
on Implementation of Section 1001 of the USA Patriot Act. Because the findings are not related
to reportable issues under the Act, it is not included in this report.



Office of the Inspector General, U.S. Department of Justice                       Page 17
   B. Review of the Department’s Use of Material Witness Warrants

        The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. § 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the OIG is investigating whether the
Department’s post-9/11 use of the statute in national security cases violated
civil rights and civil liberties. The OIG is also examining the Department’s
controls over the use of material witness warrants and trends in the use of
material witness warrants over time, as well as issues such as length of
detention, conditions of confinement, and access to counsel.

   C. Review of the FBI’s Use of National Security Letters, Section 215
      Orders, and Pen Register and Trap-and-Trace Authorities under FISA
      from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSLs) and Section 215 orders for business records. Among other issues, this
review is assessing the FBI’s progress in responding to the OIG’s
recommendations in its first and second reports on the FBI’s use of NSLs, and
in its report on the FBI’s use of exigent letters and other informal requests for
telephone records. A focus of this review is the NSL subsystem, an automated
workflow system for NSLs that all FBI field offices and Headquarters divisions
have been required to use since January 1, 2008, and the effectiveness of the
subsystem in reducing or eliminating noncompliance with applicable
authorities. The current review is also examining the number of NSLs issued
and Section 215 applications filed by the FBI between 2007 and 2009, and any
improper or illegal uses of these authorities. In addition, the review is
examining the FBI’s use of its pen register and trap-and-trace authority under
FISA.

   D. Audit of the FBI’s Management of Terrorist Watchlist Nominations
      and Encounters with Watchlisted Subjects

       The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations and encounters with watchlisted subjects. In fiscal
years 2008 and 2009, the OIG conducted two audits related to the FBI terrorist
watchlist nomination practices. In these audits, the OIG found that the FBI’s
procedures for processing international terrorist nominations were, at times,
inconsistent and insufficient, causing watchlist data used by screening
agencies to be incomplete and outdated. The OIG found that the FBI failed to
nominate for watchlisting many subjects of its terrorism investigations, did not
nominate many others in a timely manner, and did not update or remove
watchlist records as required. As a result of these reviews, the FBI reported
that it had undertaken several initiatives and implemented new processes and
guidelines to enhance its watchlisting system.




Office of the Inspector General, U.S. Department of Justice            Page 18
       The objectives of the OIG’s ongoing audit are to: (1) assess the impact of
recent events on the FBI’s watchlisting system; (2) evaluate the effectiveness of
the initiatives recently implemented by the FBI to ensure the accuracy,
timeliness, and completeness of the FBI’s watchlisting practices, including
watchlist nominations, modifications, and removals; and (3) determine whether
the FBI is appropriately managing terrorist-related information obtained
through the encounter process.

   E. Audit of the FBI’s Foreign Terrorist Tracking Task Force

      The OIG is conducting an audit of the FBI’s Foreign Terrorist Tracking
Task Force (FTTTF). The FTTTF was created in October 2001 pursuant to
Homeland Security Presidential Directive-2 (HSPD-2). According to HSPD-2,
the FTTTF is to coordinate programs with other federal agencies to: (1) deny
entry into the United States of aliens associated with, suspected of being
engaged in, or supporting terrorist activity; and (2) locate, detain, prosecute, or
deport any such aliens already present in the United States.

       This audit seeks to determine whether: (1) the FBI has implemented a
viable FTTTF strategy to locate and track suspected terrorists and their
supporters; (2) the FTTTF’s coordination with law enforcement and intelligence
agencies, as well as other outside entities, has enhanced its abilities; and (3)
the FBI has appropriately managed terrorist-related information maintained by
the FTTTF.


V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to include in this report “a description of
the use of funds appropriations used to carry out this subsection.”

       During this reporting period, the OIG spent approximately $607,356 in
personnel costs, $6,964 in travel costs, and $196 in miscellaneous costs, for a
total of $614,516 to implement its responsibilities under Section 1001. The
total personnel and miscellaneous costs reflect the time and funds spent by
OIG special agents, inspectors, and attorneys who have worked directly on
investigating Section 1001-related complaints, conducting special reviews, and
implementing the OIG’s responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice              Page 19
